                                               EMPLOYMENT AND TRAINING
                                               ADMINISTRATION


Office of Inspector General—Office of Audit





                                               MANAGEMENT OF H-2B PROGRAM NEEDS TO
                                               BE STRENGTHENED TO ENSURE ADEQUATE
                                               PROTECTIONS FOR U.S. WORKERS




                                                                  Date Issued:   September 28, 2012
                                                               Report Number:      06-12-001-03-321
U.S. Department of Labor                                   September 2012
Office of Inspector General
Office of Audit
                                                           MANAGEMENT OF H-2B PROGRAM NEEDS TO
                                                           BE STRENGTHENED TO ENSURE ADEQUATE
                                                           PROTECTIONS FOR U.S. WORKERS
BRIEFLY…
Highlights of Report Number 06-12-001-03-321, issued       WHAT OIG FOUND
to the Assistant Secretary for Employment and Training.    The OIG found ETA’s management of the H-2B
                                                           program needs to be strengthened to ensure adequate
WHY READ THE REPORT                                        protections for U.S. workers. Our audit revealed that 27
The Office of Inspector General (OIG) audited the          of the 33 employers could not support attestations
Employment and Training Administration’s (ETA) role in     made on their applications. Our findings in employment
the H-2B visa program. This audit expanded the work        attestations, immigration, and pre-filing recruitment
we completed in our previous report issued September       indicated systemic weaknesses stemming from ETA’s
30, 2011, which focused on four H-2B forestry              post-adjudication audit process and the H-2B
employers in Oregon. In that report, we recommended        regulations’ self-attestation based model. These
that ETA develop and implement procedures to               systemic weaknesses increased the risk of
strengthen their application review and post-              unsubstantiated employer attestations and jeopardized
adjudication process because of weaknesses we noted        the protections afforded by the program to U.S.
with ETA’s employer validation and prevailing wage         workers.
submissions on their H-2B application.
                                                           Specifically, ETA: (1) did not request necessary
The H-2B non-immigrant program permitted employers         source documents when conducting its post-
to hire foreign workers to enter the U.S. to perform       adjudication audits; (2) did not validate foreign
temporary non-agricultural services or labor on a          worker employment eligibility; (3) performed most
one-time, seasonal, peakload, or intermittent basis.       of its post-adjudication audits six months after the
Employers submitted H-2B applications to the
                                                           H-2B employment period ended; and (4) did not
Department of Labor’s (DOL) Office of Foreign Labor
Certification (OFLC) within ETA. To obtain H-2B
                                                           request supporting documentation to be submitted
certification and comply with employment protections,      at the time of application. These issues allowed
employers self-attested that U.S workers capable of        U.S. employers to not recruit and employ qualified
performing the job were not available and that the         U.S. workers, thus depriving domestic workers of
employment of foreign workers would not adversely          employment opportunities.
affect the wages and working conditions of similarly
employed U.S. workers.                                     WHAT OIG RECOMMENDED
                                                           The OIG recommended ETA: 1) develop an alternative
WHY OIG CONDUCTED THE AUDIT                                methodology when conducting its post-adjudication
We conducted our audit to answer the question:             audits; 2) collaborate with Department of Homeland
                                                           Security (DHS) to explore ways for ETA to review U.S.
     Did ETA’s management of the H-2B program              Citizenship and Immigration Services documents during
     ensure adequate protections for U.S. workers?         ETA post-adjudication audits; 3) begin post-adjudication
                                                           audits no later than 120 days into the approved
Our audit work was conducted at the ETA                    employment period of the selected application and
Headquarters’ Office of Foreign Labor Certification, the   complete within 70 days; and 4) continue pursuing
Chicago National Processing Center, and onsite visits      regulatory action and explore other ways to ensure the
to 31 of 33 employers from Texas, Pennsylvania,            integrity of the program including, but not limited to,
Maryland, North Carolina, California, and South Dakota.    legislative changes designed to expand ETA’s
                                                           pre-approval validation authority.
READ THE FULL REPORT
To view the report, including the scope, methodology,      ETA generally agreed with three of the four
and full agency response, go to:                           recommendations. Based on ETA’s response to our
http://www.oig.dol.gov/public/reports/oa/2012/06-12-       second and fourth recommendations, we modified
001-03-321.pdf.                                            them to emphasize that ETA should seek regulatory
                                                           changes and take other actions to ensure the integrity
                                                           of the H-2B program.
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                     Management of H-2B Program 

                                      Report No. 06-12-001-03-321

                                                          U. S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
 

Objective — Did ETA’s management of the H-2B program provide adequate 

protections for U.S. workers? ...................................................................................... 5
 
         ETA’s management of the H-2B program needs to be strengthened to 

           ensure adequate protections for U.S. workers. ............................................... 5
 

Recommendations ...................................................................................................... 13
 

Exhibits                                                                                                                      
         Exhibit 1 Summary of 33 H-2B Employer Applications ....................................... 17
 
         Exhibit 2 Employment ......................................................................................... 19
 
         Exhibit 3 Employment Continued........................................................................ 21
 
         Exhibit 4 Immigration .......................................................................................... 23
 
         Exhibit 5 Pre-Filing Recruitment ......................................................................... 25
 

Appendices                                                                                                                    
         Appendix A Background ..................................................................................... 29
 
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 31
 
         Appendix C Acronyms and Abbreviations .......................................................... 35
 
         Appendix D ETA Response to Draft Report ....................................................... 37
 
         Appendix E Acknowledgements ......................................................................... 41
 




                                                                                        Management of H-2B Program 

                                                                                         Report No. 06-12-001-03-321

             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                     Management of H-2B Program 

                                      Report No. 06-12-001-03-321

                                                                   U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                                          Office of Inspector General
                                                                  Washington, D.C. 20210


September 28, 2012

                                                    Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, DC 20210

This audit expanded the work we completed in our previous report issued
September 30, 2011, which was focused on four H-2B forestry employers in Oregon. In
the 2011 report, we found program design issues hampered the Employment and
Training Administration’s (ETA) ability to ensure that U.S. workers were provided the
protections afforded by the H-2B program. In its initial H-2B application review, ETA did
not validate that the petitioning employer was a bonafide business and did not
independently validate that the employer submitted the proper prevailing wage on their
H-2B application. Furthermore, during its post-adjudication audits, ETA did not
independently verify the names listed on the employers’ recruitment reports to
determine if those individuals actually applied for employment. One of our
recommendations was for ETA to develop and implement procedures to strengthen
their application review and post-adjudication process.

The H-2B non-immigrant program permitted employers to hire foreign workers to enter
the U.S. to perform temporary non-agricultural services or labor on a one-time,
seasonal, peakload, or intermittent basis. Employers submitted H-2B applications to the
Department of Labor’s (DOL) Office of Foreign Labor Certification (OFLC) within ETA.
To obtain H-2B certification and comply with employment protections, employers
self-attested that U.S. workers capable of performing the job were not available and that
the employment of foreign workers would not adversely affect the wages and working
conditions of similarly employed U.S. workers.

ETA said it reviewed applications for any errors that would prevent certification and for
compliance with the certification criteria. If the application appeared to be error free,
ETA did not request supporting documentation and certified or partially certified1 the
application. If ETA determined the application failed to comply with one or more of the
criteria for certification, the agency issued a written Request for Further Information
(RFI) to the employer within seven calendar days of receipt of the application. Based on
the response to the RFI, ETA certified, partially certified, issued a second RFI, or denied
                                                            
1
  Partially certified applications were certified applications for which ETA had made modifications. For example, ETA
reduced the number of requested workers because the employer had reported hiring U.S. workers.

                                                                                                Management of H-2B Program
                                                                      1                          Report No. 06-12-001-03-321
                                                               U. S. Department of Labor – Office of Inspector General


the application.

Effective October 2009, ETA began conducting post-adjudication audits within its sole
discretion and authority under 20 CFR 655.24 to verify the accuracy of the applications
and ensure integrity within the H-2B program. Typically, these audits began 6 months
after the end of the approved H-2B employment period and ETA worked to complete
these audits within 120 days.

Because self-attestation carries the inherent risk that reported information is not
accurate or supported, we assessed whether the employers could document adherence
to their self-attestations made on their applications so that we could answer the
following question:

              Did ETA’s management of the H-2B program provide adequate
              protections for U.S. workers?

In order to test ETA’s management of the H-2B program, we randomly selected 33
certified or partially certified H-2B employer applications between October 1, 2010, and
September 30, 2011, from 6 states.2 We interviewed ETA personnel and reviewed H-2B
application and post-adjudication audit procedures conducted by ETA’s Chicago
National Processing Center (CNPC). We reviewed the 33 H-2B applications with
supporting documentation, and conducted our testing in the field, to determine if the
employers could support the attestations made on their respective applications and if
ETA adhered to current program regulations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

RESULTS IN BRIEF

ETA’s management of the H-2B program needs to be strengthened to ensure adequate
protections for U.S. workers. Our audit revealed that 27 of the 33 employers could not
support attestations made on their applications. Our findings in employment
attestations, immigration, and pre-filing recruitment indicated systemic weaknesses
stemming from ETA’s post-adjudication audit process and the H-2B regulations’
self-attestation based model. These systemic weaknesses increased the risk of
unsubstantiated employer attestations and jeopardized the protections afforded by the
program to U.S. workers.


                                                            
2
 During our selection of the 33 employers, we substituted 7 additional randomly selected employers because our
Office of Labor Racketeering and Fraud Investigations had open investigations on these employers or their relevant
attorneys/agents.

                                                                                       Management of H-2B Program
                                                                 2                      Report No. 06-12-001-03-321
                                           U. S. Department of Labor – Office of Inspector General


ETA monitored the validity of employers’ self-attestations through post-adjudication
audits conducted from the CNPC. Those audits primarily focused on the areas of
pre-filing recruitment, payroll, and employer temporary need. During our audit, we
conducted onsite employer visits, interviewed employers, and reviewed source
documentation for pre-filing recruitment, immigration, and employment areas. In
contrast to ETA’s post-adjudication audit process, our audit approach enabled us to
identify certain employment, immigration, and pre-filing recruitment discrepancies that
ETA would be unable to identify given their current process. For example, ETA did not
request U.S. Citizenship and Immigration Services (USCIS) documentation from
employers relevant to their H-2B workers. Specifically, ETA did not verify the
employment eligibility of foreign workers brought into the country under the H-2B
program. The issues identified in our audit, employers not abiding by attestations on
their H-2B applications, abusing foreign workers, allowing foreign labor with unknown
legal status into the country, and the self-attestation model, provided incentives for U.S.
employers to not recruit and employ qualified U.S. workers, thus depriving domestic
workers of employment opportunities.

Furthermore, ETA’s post-adjudication audit approach did not allow for corrective action
to be made by the employer during the employment period since audits typically began
six months after the employment period ended. This practice allowed the potential for
an employer to file and receive a new certification for a subsequent application before
ETA rendered a decision of compliance/non-compliance for the audited application.

Under current regulations, the H-2B application process is an employer
attestation-based model that did not permit meaningful validation before the application
is approved. As such, no source documentation regarding the employer’s recruitment
efforts, such as the State Workforce Agency (SWA) job order or newspaper
advertisements, are required at the time of application. ETA only requested pre-filing
recruitment information through an RFI or during their post-adjudication audits. ETA
issued a Final Rule, which replaced the self-attestation model with a compliance-based
format. This change emphasized the review of documentation provided to ETA in
advance of the certification determination. However, this Final Rule is being challenged
in federal court. Although ETA is limited by the H-2B regulations, the agency must do
more to ensure the integrity of the program.

We recommend ETA develop an alternative methodology when conducting its
post-adjudication audits, including: requesting payroll source documentation;
collaborating with Department of Homeland Security (DHS) to explore ways for ETA to
review USCIS documents during their post-adjudication audits; beginning post-
adjudication audits no later than 120 days into the approved employment period of the
selected application and completing them within 70 days, not only to deter potential
fraud within the program, but also to allow the employer to take corrective action for any
deficiencies identified; and continue to pursue regulatory action and explore other ways
to ensure the integrity of the program including, but not limited to, legislative changes
designed to expand ETA’s pre-approval validation authority and discourage the
submission of inaccurate and potentially fraudulent information.


                                                                   Management of H-2B Program
                                             3                      Report No. 06-12-001-03-321
                                          U. S. Department of Labor – Office of Inspector General




ETA’S RESPONSE and OIG CONCLUSION

ETA stated our overall finding was a result of the 2008 Final Rule design flaws and not
a result of ETA’s inadequate management of the H-2B program. Throughout the report,
we described ETA’s current procedures and efforts in administering their role in the
H-2B program and stated more needs to be performed to ensure adequate protections.
We acknowledged the limited abilities of ETA under the current 2008 Final Rule,
specifically that current regulations do not permit meaningful validation of pre-filing
recruitment documentation at the time of application. However, three of the four
weaknesses identified in the report are related to ETA’s post-adjudication process and
not subject to regulatory restrictions. As such, ETA can initiate modifications to their
own post-adjudication process given our current recommendations with no regulatory
changes needed, and we feel our recommendations can be implemented without need
for additional resources.

ETA stated that OFLC seeks to strike a balance between not overburdening employers
by requiring voluminous documentation and requesting documentation to verify an
employer’s compliance with regulations. Furthermore, ETA stated they revised their
NOAE in May 2012 and are requesting payroll source documentation covering three
discrete months during the certified period. ETA believed this change in procedure
provides the OFLC with adequate source documentation necessary to make an initial
determination as to whether employers are meeting their employment and payroll
obligations under their certified H-2B application. However, ETA did not disclose nor
identify the types of payroll source documentation being requested. ETA needs to
request payroll documentation similar to what we reviewed during our audit to ensure
employers are properly paying their H-2B workers. If ETA were to follow our audit
approach, this would provide the agency a more focused and selective request of
payroll documentation minimizing the amount of paperwork requested from the
employer and requiring less time and staffing resources for their post-adjudication
audits. Furthermore, we agree with ETA that the Wage and Hour Division has the
authority to enforce the payroll obligations, therefore, we maintain ETA should refer any
payroll non-compliance to Wage and Hour for corrective action.

Finally, ETA agreed in general to collaborate with DHS on information sharing and, in
collaboration with the Department’s Office of the Solicitor, ETA has initiated discussions
with DHS to identify the types of nonimmigrant visa petition data that the OFLC could
access to enhance its administration of the H-2B program.

ETA generally agreed with three of the four recommendations and has taken actions to
implement them. Based on ETA’s response, we have adjusted language in
recommendations number two and four. ETA’s response is included in its entirety in
Appendix D.




                                                                  Management of H-2B Program
                                            4                      Report No. 06-12-001-03-321
                                           U. S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective — Did ETA’s management of the H-2B program provide adequate
             protections for U.S. workers?

ETA’s management of the H-2B program needs to be strengthened to ensure adequate
protections for U.S. workers.

Our audit revealed that 27 of the 33 employers could not support attestations made on
their applications (see Exhibit 1). Our findings in employment attestations, immigration,
and pre-filing recruitment indicated systemic weaknesses stemming from ETA’s
post-adjudication audit process and the H-2B regulations’ self-attestation based model.
Specifically, ETA: (1) did not request necessary source documents when conducting
their post-adjudication audits; (2) lacked a crucial review step in their post-adjudication
process (i.e., did not validate foreign worker employment eligibility); (3) performed most
of its post-adjudication audits six months after the H-2B employment period ended (in
some cases, employers had subsequent applications approved before the
post-adjudication process was completed); and (4) did not request support
documentation to be submitted at the time of application. These systemic weaknesses
increased the risk of unsubstantiated employer attestations and jeopardized the
protections afforded by the program to U.S. workers.

ETA’s Post-Adjudication Audit Process

ETA monitored the validity of employers’ self-attestations through post-adjudication
audits conducted by the CNPC within its sole discretion and authority under 20 CFR,
Part 655.24. The regulations are silent on the specific documentation ETA can or
cannot request. Given ETA’s limited resources and efforts to ensure timely audits, ETA
chose to primarily focus on the areas of pre-filing recruitment, payroll, and employer
temporary need. We conducted onsite employer visits, interviewed employers, and
requested source documentation for immigration, employment and pre-filing recruitment
areas. Our audit approach enabled us to identify certain employment, immigration, and
pre-filing recruitment discrepancies that ETA would be unable to identify given their
current process based on the program’s regulatory framework. Furthermore, ETA’s
post-adjudication audit approach did not allow for corrective action to be made by the
employer during the employment period since audits typically began six months after
the H-2B employment period ended, with a goal to complete within 120 days.

In May 2011, ETA created an Audit Integrity Team to focus on conducting
post-adjudication audits. The team audited statistically random or targeted certified and
partially certified H-2B applications and focused on substantiation of temporary need,
recruitment efforts, and payroll.

For those H-2B applications selected for audit, ETA would send the employer a NOAE
letter. This letter provided the requirement for responding to the notice and all requested
documentation the employer had to submit to ETA within 21 days of the letter. If the


                                                                   Management of H-2B Program
                                             5                      Report No. 06-12-001-03-321
                                                               U. S. Department of Labor – Office of Inspector General


employer did not comply with the audit request, ETA required the employer to conduct
supervised recruitment in future filings of H-2B applications or debarment. After ETA
received the documents, it began its audit. If the employer did not provide all requested
documentation or if ETA required further documents, ETA sent the employer a Request
for Supplemental Information.

ETA advised us on August 28, 2012, after completing its audit, that it may issue a letter
of compliance, a warning letter, a notice of supervised recruitment, or propose to debar
the employer. ETA may impose a warning or supervised recruitment where an employer
was found to have: (1) violated H-2B requirements, (2) made a material
misrepresentation to DOL, (3) failed to adequately conduct recruitment activities, or
(4) failed to comply with any H-2B requirements enumerated in 20 CFR 655, Subpart A.
ETA told us it may debar an employer from the H-2B program if it is determined that the
employer substantially violated a material term or condition of its temporary labor
certification (i.e., employers paying workers an amount that was substantially lower than
the prevailing wage, employers moving workers outside the certified area of intended
employment, or not responding to the NOAE). Similarly, the agency may debar an agent
or attorney if it is determined that the agent or attorney participated in, had knowledge
of, or had reason to know of, the employer's substantial violation.

As of August 2, 2012, ETA had completed 378 of 661 post-adjudication audits and
proposed to debar six employers from participation in the program. ETA’s reason for
proposing debarment for these six employers is that none of the six responded to the
notification of audit. ETA did not identify any instances of noncompliance with
attestations made on the employers’ applications, but instead proposed to debar the
employer for nonresponse.

             Issues Identified in Employment Attestations

    We reviewed 33 H-2B applications and supporting documentation to determine if the
    employers could support the attestations made on their respective applications. We
    interviewed employers and reviewed supporting H-2B source documentation,
    including immigration and payroll documents. We identified 23 employers that did not
    abide by the employment attestations made on their H-2B applications.3 Among the
    discrepancies impacting U.S. workers were: employers not properly paying their
    foreign workers (20 instances), employers not notifying ETA of foreign workers’ early
    departure prior to the end of the employment period (11), employers working foreign
    workers outside of the approved work area (4), and employers advertising drug testing
    as a requirement but did not subject foreign workers to the test (3). See Exhibits 2 and
    3 for the summary listings of employment attestation deficiencies identified for each of
    the employers.

    ETA requested summary payroll documentation from employers to support they 

    abided by the attestations made on their respective H-2B applications. Specifically, 

    ETA stated they accepted summary monthly payroll records to support prevailing 

                                                            
3
    Some employers demonstrated more than one employment attestation deficiency.

                                                                                       Management of H-2B Program
                                                                 6                      Report No. 06-12-001-03-321
                                         U. S. Department of Labor – Office of Inspector General


wages were paid. As such, ETA’s audits did not review source documentation to
ensure hours worked were paid correctly or wages purported as paid were actually
paid.

                  Employer Payroll Issues

        o           Fourteen of the 33 employers did not pay their H-2B workers the
            prevailing wage. The employers attested on their applications they would
            pay the prevailing wage. By not paying the prevailing wage, the employers
            did not comply with employment protections and ensure that the
            employment of foreign workers did not adversely affect the wages of
            similarly employed U.S workers. Examples included:

            One employer presented summary payroll documentation to us as proof it
            had paid prevailing wages. However, when asked for time sheets
            documenting hours worked to those found on the payroll summaries and
            copies of bank statements or cleared checks to verify wages actually paid,
            the employer then explained that the original documentation provided to
            us was inaccurate and had only shown what should have been paid. We
            then reviewed the source documentation and identified the employer had
            actually paid little more than half of the prevailing wages to its four foreign
            workers. This matter has been referred to the OIG Office of Labor
            Racketeering and Fraud Investigations (OLRFI) for possible criminal
            investigation.

            One employer attested to paying its foreign workers $10.79 per hour.
            However, when we reviewed the source payroll documentation, we
            determined the employer paid 6 of its 27 workers $10 instead of $10.79
            per hour. The remaining 21 workers were paid the correct wage or more
            than the prevailing wage.

            One employer attested to paying its seven foreign workers $9.84 per hour.
            However, we found the employer did not pay the prevailing wage to two
            workers: one worker was paid $9.50 per hour, and the other was paid
            $9.00 per hour.

        o          Two employers did not properly pay their foreign workers, including
            overtime pay in certain pay periods.

            One employer did not pay 7 foreign workers overtime, as the employer
            capped their hours at 40 hours per week. We reviewed the foreign
            workers’ timesheets and compared them back to the payroll register. We
            identified the foreign workers worked over 40 hours; however, the payroll
            register showed they were only paid for 40 hours. In one case, a foreign
            worker worked 63 hours, but was still only paid for 40 hours. Employers
            attest they will abide by H-2B regulations in ensuring workers are paid for


                                                                 Management of H-2B Program
                                           7                      Report No. 06-12-001-03-321
                                     U. S. Department of Labor – Office of Inspector General


         all hours, including the appropriate premium overtime for hours greater
         than 40 hours in a week.

         The other employer did not pay two of its four foreign workers the correct
         amounts. The payroll register showed the correct payroll totals; however,
         we reviewed the checks paid to the workers and the employer underpaid
         the workers by as much as $128. Additionally, one of the employees was
         not paid eight hours of overtime.

    o	           One employer made unauthorized deductions from 22 of 28 foreign
         workers’ pay. The employer deducted attorney fees and required the
         foreign workers to reimburse the employer for the newspaper
         advertisements related to their H-2B application, even though the
         employer attested on its application it would not seek or receive payment
         of any kind from employees for any activity related to obtaining labor
         certification.

    o	          One employer advertised the correct prevailing wage; however, the
         payroll documentation showed the employer paid the foreign workers
         differently. The employer paid a base hourly wage, which was below the
         prevailing wage, but the employer paid bonuses to the foreign workers if
         they completed the job early. The base hourly wage plus the bonus
         payments increased the total wages significantly, sometimes doubling the
         advertised wage. However, the employer did not advertise the correct
         wage and bonus incentive. If potential U.S. applicants had known they
         would be paid twice the prevailing wage, some additional U.S. applicants
         might have applied for this job.

    o	           One employer did not pay 4 of 15 foreign workers it brought into the
         country as the payroll documentation for these 4 workers did not contain
         any payroll amounts. Furthermore, the employer did not employ these
         workers for the month of March. We asked the employer why there was no
         March payroll, and the employer told us the foreign workers worked for
         another employer. This employer conveyed to us that it routinely shared
         its workers with other employers, and vice versa. Allowing foreign workers
         to work for another employer adversely affected the working conditions of
         similarly employed U.S. workers and potentially took job opportunities
         away from U.S. applicants.

              Employers Did Not Notify ETA of Foreign Workers’ Early Departure

    Employers attested on their applications that if an H-2B foreign worker leaves
    work prior to the end date of employment, the employers would notify ETA in
    writing no later than 48 hours after the employer discovers the separation.
    However, we found 11 employers had H-2B foreign workers who left early,
    but did not notify ETA. Because the employer did not notify ETA of the foreign


                                                             Management of H-2B Program
                                       8                      Report No. 06-12-001-03-321
                                        U. S. Department of Labor – Office of Inspector General


         workers’ departure, there was a possibility these foreign workers could have
         worked for another employer and taken away job opportunities from potential
         U.S. applicants.

                  Foreign Workers Worked Outside of Approved Area

         Employers attested on their applications they would not place any H-2B
         workers outside the approved area of employment listed on the application.
         However, we found four employers had their H-2B foreign workers working
         outside their approved area. As such, it is possible these workers were
         underpaid because prevailing wages on the applications were only for the
         approved area of work and U.S. workers would not have been aware of the
         employment opportunities.

                  Foreign Workers Not Subjected to Advertised Drug Testing

         Employers attested that the offered terms and conditions were not less
         favorable than those offered to foreign workers. We found three employers
         advertised drug testing as a requirement for employment by U.S. applicants.
         However, none of the three employers performed drug testing on their foreign
         workers. This requirement may have caused potential U.S. applicants not to
         apply for these jobs.

Utilizing ETA’s current audit approach, these scenarios may not have been identified
and the conditions would likely have continued as summary documentation is
inherently incomplete and can be easily manipulated. Abuse of foreign workers in
these manners undermines comparable U.S. workers’ pay and, if not identified,
provides a tangible incentive for H-2B employers to not recruit and employ U.S.
workers. Furthermore, based on ETA’s debarment criteria, we identified 16 separate
employers from the 33 we reviewed who should be considered for debarment from
future participation in the H-2B program. The names of these 16 employers will be
referred to ETA.

 	 Foreign Workers’ Employment Eligibility Review Step Missing During 

    ETA’s Post-Adjudication Audits 


Once an employer’s application had been selected for post-adjudication audit, ETA
primarily focused its efforts on requesting and reviewing documentation supporting the
employer’s temporary need, payroll, and pre-filing recruitment efforts. However, ETA
did not attempt to verify the employment eligibility of foreign workers brought into the
country under the H-2B program, as the agency did not request immigration
documentation of these workers and only requested the foreign workers’ names and
start and end dates for payroll purposes. ETA told us that issues related to
employment eligibility verification and other non-immigrant forms and documentation
were outside their jurisdiction and should be brought to the attention of DHS.



                                                                Management of H-2B Program
                                          9                      Report No. 06-12-001-03-321
                                                               U. S. Department of Labor – Office of Inspector General


    We requested USCIS documentation from employers relevant to their H-2B workers
    such as I-9s, I-129s, I-797s, 4 and copies of H-2B visas in an attempt to verify
    employment eligibility. We identified 15 employers who had issues with their
    immigration documentation, such as missing or incomplete forms. See Exhibit 4 for a
    summary of immigration deficiencies. Examples of immigration issues follow.

                               Employers were required to complete an I-9 form for all newly hired
                      employees to verify their identity and authorization to work in the United
                      States. Six employers could not produce I-9 forms for their workers to help
                      validate employment eligibility (no determination could be made showing the
                      foreign workers had the legal status to work in the United States). For
                      example, one employer did not have any I-9 forms for its 15 H-2B employees.

                                Four employers brought their foreign workers into the country prior
                      to their approved employment dates. Three of these employers had foreign
                      workers who signed their I-9 forms prior to their H-2B visa issuance dates.
                      Another employer had its foreign workers earn wages over a month prior to
                      the approved employment period.

                                One employer brought in two foreign workers who were not named
                      on its I-129 petition to USCIS; thus, these workers were not approved to work
                      in the U.S. for this employer under the H-2B program.

    ETA requested a listing of all foreign workers, but did not request documentation to
    verify those workers existed and were in the country legally to work. The employers
    attested on their applications they would follow all Federal, State, and local laws.
    Employers were required to complete an I-9 for all newly hired employees to verify
    their identity and authorization to work in the United States; however, we talked to a
    USCIS employee and generally DHS did not verify employment eligibility of H-2B
    workers after they entered the country.

    Allowing foreign workers into the U.S. during unapproved periods and permitting
    unapproved workers into the country may negatively impact comparable U.S. workers
    by reducing valid employment opportunities. These practices dis-incentivize H-2B
    employers from genuinely recruiting U.S. workers when they know foreign labor can
    be obtained during unapproved periods and legal work status is not verified.

       	 Post-Adjudication Audits Were Not Timely

    ETA’s post-adjudication audit approach did not allow for corrective action to be made
    by the employer during the H-2B employment period because ETA typically began its
    audits six months after the employment period ended and took up to 120 days to
    complete. At that point, the approved employment period had concluded and the
    foreign workers had returned home. This practice allowed the potential for an
                                                            
4
    I-9 - Employment Eligibility Verification form; I-129 - Petition for a Nonimmigrant Worker; I-797 - Notice of Action



                                                                                         Management of H-2B Program
                                                                10                        Report No. 06-12-001-03-321
                                                               U. S. Department of Labor – Office of Inspector General


    employer to file and receive a new certification for a subsequent application before
    ETA rendered a decision of compliance/non-compliance for the audited application. In
    some cases, these same foreign workers had already returned to the U.S. under a
    subsequent application for the same employer. Conducting post-adjudication audits in
    this manner provided no actual protections for U.S. workers as discrepancies in
    employing foreign workers may have already taken place and corresponding
    protections for U.S. workers had been nullified.

    As an example, ETA completed a post-adjudication audit for an employer’s FY 2010
    application and issued a warning letter to the employer for hiring only 35 foreign
    workers when they were approved for 50 foreign workers. This same employer5 once
    again requested and was approved for 50 workers for FY 2011, but only brought in 13
    foreign workers, all of whom worked on the previous H-2B application. We identified
    the 2011 application was certified one day after ETA began its post-adjudication audit
    of the 2010 application. The warning letter had no effect on the employer’s new H-2B
    submission and the employer still requested 50 workers, even though it did not have
    the temporary need for all 50 foreign workers.

    ETA should begin its audits no later than 120 days into the approved employment
    period of the selected application. Beginning the audits in this manner allows the
    employer to bring in all foreign workers and sufficient documentation to support payroll
    disbursements would be available to perform a payroll review by ETA. This practice
    would allow ETA to not only deter potential fraud within the program, but also allow the
    employer to initiate corrective actions for deficiencies identified. Waiting to perform
    post-adjudication audits at the end of or even after the employment period provides no
    benefit. For example, during our employer reviews, we did not identify any instance
    where the employer began paying the prevailing wage and then decided to reduce the
    workers’ pay later in the period. Instead, we found 14 employers not paying prevailing
    wages either during the initial payroll periods or not at all throughout the entire
    employment period. Conducting audits early in the approved employment period
    would allow ETA an opportunity to identify problems, if they existed, at a time when
    corrective actions can not only be made, but protections of both foreign and domestic
    workers can be asserted.

Current Regulations Do Not Permit Meaningful Validation of Pre-filing
Recruitment Documentation at the Time of H-2B Application Submission

Under current regulations, Title 20, Code of Federal Regulations (20 CFR), Part 655,
the H-2B application process is an employer attestation-based model that does not
permit meaningful validation before the application is approved. As such, no source
documentation regarding the employer’s recruitment efforts, such as the State
Workforce Agency (SWA) job order or newspaper advertisements, are required at the
time of application. ETA only requests pre-filing recruitment information through an RFI
or during their post-adjudication audits. During its proposed rulemaking to change the
2008 H-2B regulations, the Department stated that deferring many determinations of
                                                            
5
    Selected as part of our sample.

                                                                                       Management of H-2B Program
                                                                11                      Report No. 06-12-001-03-321
                                           U. S. Department of Labor – Office of Inspector General


program compliance until after an application has been adjudicated does not provide an
adequate level of protection for U.S. workers.

According to 20 CFR, 655.15(b), employers were only required to attest on the H-2B
application to having performed all required steps of the recruitment process as
specified in this part, including the required SWA job order and the signed recruitment
report. The recruitment report identified each recruitment source by name; the name
and contact information of each U.S. worker who applied or was referred to the
employer; the disposition of each worker; and if applicable, the lawful job-related reason
for not hiring any U.S. worker who applied or was referred to the position.

After completing the pre-filing requirement, the employer submitted an ETA Form 9142,
Application for Temporary Employment Certification, Appendix B.1, and the signed
recruitment report. ETA reviewed the application, appendix, and recruitment report for
any errors that would have prevented certification and for compliance with the
certification criteria. If the application appeared to be error free, ETA did not request
supporting documentation and certified or partially certified the application. If ETA
determined that the application failed to comply with one or more of the criteria for
certification, the agency would issue a written RFI to the employer within seven
calendar days of receipt of the application. Based on the response to the RFI, ETA
would certify, partially certify, issue a second RFI, or deny the application.

These regulations left the H-2B program open to noncompliance as employers were not
required to validate they had recruited U.S. applicants per regulatory requirements at
the time of application. Instead, validation of pre-filing recruitment requirements could
not be made unless the employer was issued an RFI requesting this specific
documentation or the application had been selected for a post-adjudication audit by
ETA. However, not all employers would be subjected to this additional level of
justification as not all applications received an RFI nor were all applications selected for
a post-adjudication audit.

We found 18 of the 33 employers sampled did not comply with program pre-filing
recruitment requirements. Sixteen employers’ job orders did not advertise that the
employment positions were to be in connection with a future H-2B application, minimum
education or training requirements, or note that on-the-job training would be provided to
new hires. Lacking this critical required information could have potentially discouraged
U.S. workers from applying for these H-2B jobs. See Exhibit 5 for a summary of Pre-
Filing Recruitment deficiencies.

20 CFR, Part 655.15(e), Job Order states:

       The employer must place an active job order with the SWA serving the
       area of intended employment… identifying it as a job order to be placed in
       connection with a future application for H-2B workers… The job order
       submitted by the employer to the SWA must satisfy all the requirements
       for newspaper advertisements contained in 655.17.


                                                                   Management of H-2B Program
                                             12                     Report No. 06-12-001-03-321
                                           U. S. Department of Labor – Office of Inspector General


20 CFR 655.17 (e) Advertising requirements states:

       … The job opportunity’s minimum education and experience requirements
       and whether or not on-the-job training will be available.

On February 21, 2012, the Department published a Final Rule amending the H–2B
regulations at 20 CFR part 655, Subpart A. Under the new Final Rule, ETA would
require employers to provide a copy of the draft the employer provides to the SWA for
the creation of the SWA job order. A review conducted at this stage by ETA prior to
actual recruitment of U.S. workers should ensure that job orders meet all regulatory
requirements and eliminate the deficiencies identified in this audit. However, on
April 16, 2012, several plaintiffs filed a challenge to the 2012 H-2B Final Rule in the U.S.
District Court for the Northern District of Florida. On April 26, 2012, the U.S. District
Court for the Northern District of Florida issued an order temporarily enjoining the
Department from implementing or enforcing the 2012 H-2B Final Rule pending ‘‘the
court’s adjudication of the plaintiffs’ claims.’’

Therefore, employers must continue to file H-2B labor certification applications under
the 2008 H-2B Rule, and ETA will still only request pre-filing recruitment information
through an RFI or during its post-adjudication audits. Although ETA is limited by the
2008 H-2B regulations, the agency must do more to ensure the integrity of the program,
until a decision has been made regarding the Final Rule.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

    1. 	             Develop an alternative audit methodology regarding payroll areas
        when conducting post-adjudication audits. For example, ETA should request and
        review payroll source documentation to ensure purported wages are actual
        wages paid. ETA should refer all identified payroll non-compliance to DOL’s
        Wage and Hour Division for enforcement;

    2. 	              Collaborate with DHS to explore ways for ETA to review USCIS
        documents during their post-adjudication audits. ETA’s immigration review
        methodology should include referrals to DHS if they determine any errors with
        the immigration documentation;

    3. 	              Begin post-adjudication audits no later than 120 days into the
        approved employment period of the selected application and complete within 70
        days, not only to deter potential fraud within the program, but also to allow the
        employer to take corrective action for any deficiencies identified; and

    4. 	              Continue pursuing regulatory action and explore other ways to
        ensure the integrity of the program including, but not limited to, legislative



                                                                   Management of H-2B Program
                                            13                      Report No. 06-12-001-03-321
                                          U. S. Department of Labor – Office of Inspector General


      changes designed to expand ETA’s pre-approval validation authority and
      discourage the submission of inaccurate and potentially fraudulent information.

We appreciate the cooperation and courtesies that ETA personnel extended to the OIG
during this audit. OIG personnel who made major contributions to this report are listed in
Appendix E.




Elliot P. Lewis
Assistant Inspector General
for Audit




                                                                  Management of H-2B Program
                                           14                      Report No. 06-12-001-03-321
Exhibits 





                  Management of H-2B Program
             15    Report No. 06-12-001-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Management of H-2B Program
             16                      Report No. 06-12-001-03-321
                                      U. S. Department of Labor – Office of Inspector General


                                                                                 Exhibit 1
Summary of 33 H-2B Employer Applications

                                                       Problem Areas 
                 Attestations not     Pre‐filing 
  Employer ID       Supported        Recruitment        Immigration          Employment 
TX1                                                                                 
TX2                     X                 X                                       X 
TX3                                                                                 
TX4                     X                                     X                   X 
TX5                     X                 X                                         
TX6                     X                                     X                   X 
TX7                     X                 X                   X                   X 
TX8                     X                 X                                       X 
TX9                     X                                                         X 
TX10                    X                 X                  X                    X 
TX11                    X                 X                  X                    X 
TX12                    X                 X                  X                    X 
PA1                                                                                 
PA2                     X                 X                  X                    X 
PA3                     X                 X                                       X 
PA4                                                                                 
PA5                     X                                                         X 
PA6                     X                 X                                       X 
PA7                     X                 X                                         
PA8                     X                                    X                    X 
MD1                     X                                    X                    X 
MD2                     X                                                         X 
MD3                                                                                 
MD4                     X                                                         X 
NC1                     X                                                         X 
NC2                                                                                 
NC3                     X                 X                  X                    X 
NC4                     X                 X                  X                    X 
CA1                     X                 X                  X                    X 
CA2                     X                 X                  X                    X 
CA3                     X                 X                  X                    X 
SD1                     X                 X                  X                      
SD2                     X                 X                                         
                        27               18                  15                  23 




                                                              Management of H-2B Program
                                        17                     Report No. 06-12-001-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Management of H-2B Program
             18                      Report No. 06-12-001-03-321
                                                                                                         U. S. Department of Labor – Office of Inspector General


                                                                                                                                                                                                                                                          Exhibit 2
Employment

                                                                                                                                    Employment 
                                                                                                                                  Foreign Workers 




                                                                                                                                                                                          Remained in country beyond 
                                                                                                                                                            Worked outside of approved 




                                                                                                                                                                                                                                                        not perform testing on H‐2B 
                                                                                                                                                                                                                        Did not receive all promised 
                                                                                                  Did not receive wages for at 




                                                                                                                                                                                                                                                        requirement for job but did 
                                                                       Did not work minimum 30 




                                                                                                                                                                                                                                                        Advertised drug testing as 
                        Early departure but no 




                                                                                                                                  Treated as contractors 




                                                                                                                                                                                          approved timeframe 
                                                                                                  least one pay period 
                                                  Hours not tracked 
                        Notification 




                                                                                                                                                                                                                        benefits 




                                                                                                                                                                                                                                                        workers 
                                                                       hours 




                                                                                                                                                            area 
Employer ID 
TX2                          X                                                                                                                                                                                                                                       
TX4                                                     X                                                  X                                                                                                                                                         
TX6                          X                          X                                                                            X                                                                                                                               
TX7                                                                            X                                                                                                                   X                                                                 
TX8                                                                                                        X                                                                                                                                                         
TX9                                                     X                                                                                                                                                                                                            
TX10                         X                                                                                                                                       X                                                                                               
TX11                         X                                                                                                                                                                                                                                       
TX12                         X                                                 X                           X                                                         X                                                                                             X 
PA2                          X                                                 X                                                                                                                                                                                     
PA3                          X                                                 X                                                                                                                                                 X                                   
PA5                                                                            X                           X                                                                                                                                                       X 
PA6                                                     X                                                                                                                                                                                                            
PA8                          X                                                                                                                                                                                                                                       
MD1                                                                                                                                                                                                                                                                X 
MD2                                                                                                                                                                                                                                                                  
MD4                          X                                                 X                                                                                     X                                                                                               
NC1                                                                            X                                                                                     X                                                                                               
NC3                          X                                                                                                                                                                                                                                       
NC4                                                                            X                                                                                                                                                                                     
CA1                                                                                                                                                                                                                                                                  
CA2                                                     X                                                                                                                                                                                                            
CA3                          X                                                                             X                                                                                                                                                         
   Cumulative Totals         11                         5                      8                           5                         1                               4                             1                             1                                 3 




                                                                                                                                                                                                Management of H-2B Program
                                                                                                                   19                                                                            Report No. 06-12-001-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Management of H-2B Program
             20                      Report No. 06-12-001-03-321
                                               U. S. Department of Labor – Office of Inspector General


                                                                                                                                          Exhibit 3
Employment Continued

                                                                            Employment 
                                                                          Prevailing Wage 




                                                                                                         Paid entire wages in one lump 




                                                                                                                                             Payroll periods not consistent 
                                                                           Unauthorized deductions 




                                                                                                         sum at the end of the 
                                                                                                         employment period 
                                                     Overtime not paid 
Employer ID                        Not Paid 
TX2                                                                                                                                                
TX4                                 X                                                                                                              
TX6                                 X                                                                                                              
TX7                                 X                                                                                                              
TX8                                 X                      X                                                                                       
TX9                                 X                                                                                                              
TX10                                                                                                                                               
TX11                                                                                                                                               
TX12                                X                                         X                                                                    
PA2                                 X                                                                                                              
PA3                                 X                                                                                                              
PA5                                 X                      X                                                                                       
PA6                                                                                                                                                
PA8                                                                                                                                                
MD1                                 X                                                                                                              
MD2                                 X                                                                                                              
MD4                                 X                                         X                                                                    
NC1                                                                                                                                                
NC3                                                                                                                                                
NC4                                 X                                                                                                              
CA1                                                                                                                 X                              
CA2                                                                                                                                                
CA3                                 X                                                                                                            X 
               Cumulative Totals    14                     2                  2                                     1                            1 




                                                                                                      Management of H-2B Program
                                                21                                                     Report No. 06-12-001-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Management of H-2B Program
             22                      Report No. 06-12-001-03-321
                                                                                    U. S. Department of Labor – Office of Inspector General


                                                                                                                                                                 Exhibit 4
Immigration

                                                                                                     Immigration 
                                                          I‐9 Forms                                                                  Worker 




                                                                                                                                                                  Was not approved to work 
                                                                                                                                        Worked unapproved job 
                                                            Improperly Completed 




                                                                                                         unauthorized period 
                                    Lacked Information 




                                                                                                                                                                  for this employer 
                                                                                                         In country during 
                                                                                          Missing 
Employer ID 
TX4                                                                                                            X                                                            
TX6                                       X                                                 X                                              X                                
TX7                                                                                                                                                                       X 
TX10                                      X                        X                                                                                                        
TX11                                      X                                                 X                                                                               
TX12                                                               X                                           X                                                            
PA2                                                                                         X                                                                               
PA8                                                                                                            X                                                            
MD1                                       X                                                 X                                                                               
NC3                                       X                        X                                                                                                        
NC4                                                                                         X                                                                               
CA1                                       X                                                                                                                                 
CA2                                                                                                            X                                                            
CA3                                                                                         X                                                                               
SD1                                       X                                                                                                                                 
               Cumulative Totals          7                        3                        6                  4                           1                              1 




                                                                                                                                Management of H-2B Program
                                                                                     23                                          Report No. 06-12-001-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Management of H-2B Program
             24                      Report No. 06-12-001-03-321
                                                  U. S. Department of Labor – Office of Inspector General


                                                                                             Exhibit 5
Pre-Filing Recruitment

                                                          Pre‐Filing Recruitment 
                                                                 Job Order 




                                 Misadvertised 




                                                                            Misadvertised 
                                                   not necessary 
                                                   requirements 




                                                                            information 




                                                                                             information 
                                                   Advertised 




                                                                                             necessary 
                                                                                             Lacked all 
                                 benefits 




                                                   workers 




                                                                            contact 
                                                   of H‐2B 
Employer ID 
TX2                                  X                                                             
TX5                                                                              X                 
TX7                                                                              X              X 
TX8                                                                                             X 
TX10                                                                                            X 
TX11                                                                                            X 
TX12                                                      X                                     X 
PA2                                                                                             X 
PA3                                                                                             X 
PA6                                                                                             X 
PA7                                                                                             X 
NC3                                                                              X              X 
NC4                                                                                             X 
CA1                                                                                             X 
CA2                                                                                             X 
CA3                                                                                             X 
SD1                                                                                             X 
SD2                                                                                             X 
            Cumulative Totals        1                    1                      3              16 




                                                                          Management of H-2B Program
                                                   25                      Report No. 06-12-001-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Management of H-2B Program
             26                      Report No. 06-12-001-03-321
               U. S. Department of Labor – Office of Inspector General




Appendices 





                                       Management of H-2B Program
                27                      Report No. 06-12-001-03-321
             U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                     Management of H-2B Program
              28                      Report No. 06-12-001-03-321
                                          U. S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

This audit expanded the work we completed in our previous report issued
September 30, 2011, which was focused on four H-2B forestry employers in Oregon. In
the 2011 report, we found program design issues hampered the Employment and
Training Administration’s (ETA) ability to ensure that U.S. workers were provided the
protections afforded by the H-2B program. In its initial H-2B application review, ETA did
not validate that the petitioning employer was a bonafide business and did not
independently validate that the employer submitted the proper prevailing wage on their
H-2B application. Furthermore, during its post-adjudication audits, ETA did not
independently verify the names listed on the employers’ recruitment reports to
determine if those individuals actually applied for employment. One of our
recommendations was for ETA to develop and implement procedures to strengthen
their application review and post-adjudication process.

The H-2B non-immigrant program permitted employers to hire foreign workers to enter
the U.S. to perform temporary non-agricultural services or labor on a one-time,
seasonal, peakload, or intermittent basis. Employers submitted H-2B applications to the
Department of Labor’s (DOL) Office of Foreign Labor Certification (OFLC) within ETA.
To obtain H-2B certification and comply with employment protections, employers
self-attested that U.S. workers capable of performing the job were not available and that
the employment of foreign workers would not adversely affect the wages and working
conditions of similarly employed U.S. workers. .

Prior to obtaining an H-2B labor certification, employers must have determined that
there were not sufficient U.S. workers who were capable of performing the work for
which labor certification was sought. Specifically, the regulations required that the
employer: (1) post a job order with the SWA serving the area of intended employment in
order to obtain referrals of interested U.S. workers through the interstate job order
clearance system; (2) publish two newspaper advertisements, one of which must have
been on a Sunday; (3) contacted the applicable union for referral of U.S. workers if the
employer was a party to a collective bargaining agreement that covered the job
classification that was the subject of the H-2B labor certification; and (4) contacted
workers who were laid off in the occupation and in the area of intended employment,
within 120 days of the first date on which an H-2B worker was needed, to inform them of
the position(s). The regulations also outlined specific information that must have been
included in all newspaper advertisements and job orders, such as the name of the
employer, the area of intended employment, the rate of pay, a description of the
position, and whether tools or equipment would be provided by the employer.

Additionally, the regulations required the employer to prepare, sign, and date a written
recruitment report that summarized the recruitment steps undertaken and the results of
such recruitment, including the lawful job-related reason(s) for not hiring any U.S.
workers who applied or were referred to the position. Employers seeking H-2B



                                                                  Management of H-2B Program
                                           29                      Report No. 06-12-001-03-321
                                           U. S. Department of Labor – Office of Inspector General


certification must have filed an ETA Form 9142, Application for Temporary Employment
Certification, along with a copy of the recruitment report.

ETA reviewed applications for any errors that would prevent certification and for
compliance with the certification criteria. If the application appeared to be error-free,
ETA did not request support documentation and certified or partially certified the
application. If ETA determined that the application failed to comply with one or more of
the criteria for certification, the agency will issued a written RFI to the employer within
seven calendar days of receipt of the application. Based on the response to the RFI,
ETA would certify, partially certify, issue a second RFI, or deny the application.

Subsequent to certifying an application, effective October 2009, ETA began conducting
post-adjudication audits within its sole discretion and authority under 20 CFR 655.24 to
verify the accuracy of the applications and ensure integrity within the H-2B program.
Typically, these audits began six months after the end of the approved H-2B
employment period and ETA worked to complete these audits within 120 days.




                                                                   Management of H-2B Program
                                             30                     Report No. 06-12-001-03-321
                                          U. S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Did ETA’s management of the H-2B program ensure adequate protections for U.S.
workers?

Scope

The audit focused on ETA’s management of the H-2B program and 33 H-2B employer
applications submitted between October 1, 2010, and September 30, 2011. We
assessed whether the 33 H-2B employers could document adherence to the
self-attestations allowed by the application.

Our audit work was conducted at the ETA Headquarters’ Office of Foreign Labor
Certification, the Chicago National Processing Center, and 31 onsite visits to employers
found in the following states: Texas, Pennsylvania, Maryland, North Carolina, California,
and South Dakota. We did not visit 2 employers because one employer, a crab
fisherman, was out to sea, and the other employer did not hire any foreign workers.
However, documentation was still provided by both employers and analyzed by our
team.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective.

Methodology

We reviewed laws and regulations governing the H-2B program and gained an
understanding of program processes and procedures. We also reviewed recent
performance data reported by ETA and identified data trends based on previous report
years.

We conducted multiple interviews with OIG – OLRFI representatives to determine if they
had any investigations or planned investigations that would have had an impact on our
audit and replaced seven of our originally sampled employers due to ongoing
investigations with OLRFI.

We held an entrance conference with ETA national office management and obtained H-
2B policies and procedures, determined the most updated information regarding the
anticipated new Final Rule, and other requested documentation.



                                                                  Management of H-2B Program
                                           31                      Report No. 06-12-001-03-321
                                            U. S. Department of Labor – Office of Inspector General


We visited ETA’s CNPC and performed the following:

   1. Conducted interviews with ETA officials;
   2. Had staff provide a walkthrough of the entire application review process and
      post-adjudication audits;
   3. Obtained essential documentation including Standard Operating Procedures of
      the application review process and post-adjudication process; and
   4. Identified internal controls for both the application review and post-adjudication
      processes.

We evaluated internal controls used by ETA for reasonable assurance that they
complied with appropriate regulations and procedures in approving foreign labor
certifications. Our consideration of ETA’s internal controls for foreign labor certification
procedures would not necessarily disclose all matters that might be reportable
conditions. Because of inherent limitations in internal controls, noncompliance may
nevertheless occur and not be detected.

Prior to our sampling process, we obtained a listing of all H-2B applications received,
based on decision date, from October 1, 2010, through September 30, 2011, from
OFLC's database, totaling 4,409 applications OFLC received. The data was generated
from ETA’s Case Management System. We performed a data reliability assessment to
ensure we received a complete and accurate data file. To determine whether the data
was reliable to select our sample, we performed various testing of required data
elements, interviewed ETA officials knowledgeable about the data, and reviewed
employer-submitted applications, which served as source data for all information found
in the Case Management System, including relevant general and application controls.
We concluded the data to be sufficiently reliable for our purposes.

From this database, we separated the denied applications, which resulted in 3,806 total
certified (2,633) or partial certified (1,173) H-2B applications. These 3,806 applications
served as our universe/population. From these 3,806, we analyzed and sorted the data
based on the top 20 states which accounted for 3,049, or 80 percent, of the 3,806 total
certified or partial certified applications. As such, our sampling frame was the 3,049 H-
2B applications.

Our sampling method consisted of a two-stage stratified cluster sampling approach:

   1. Six States selected out of total of 20 using stratification. (3 Stratum-based on
      applications) (Note: 20 states represents 80 percent of all certified or partial
      certified applications)
   2. We selected 123 employer applications from 6 selected states using proportional
      allocation methodology.

From the 123 applications, we selected a sample of 33 applications (all numbers for
each state were rounded up). Due to the amount of errors we identified during our work,



                                                                    Management of H-2B Program
                                              32                     Report No. 06-12-001-03-321
                                          U. S. Department of Labor – Office of Inspector General


we were prevented from projecting our results to the population as these errors
exceeded our total allowable error rate of 12 percent.

During our testing phase, we provided the CNPC the list of 33 employers and requested
documentation to be included in each application file (i.e., recruitment report, applicant
resumes, newspaper advertisements, and SWA job order postings). The CNPC
complied with our request and provided the documentation.

In order to test ETA’s management of the H-2B program, we contacted all 33 employers
and scheduled onsite visits with 31 of them. We requested and received the following
documentation for comparison to original H-2B applications and verification of
attestations made from all employers:

   1. ETA Form 9141 – Prevailing Wage Determination
   2. Job Order and all corresponding information for the State Workforce Agency
       contacted, including U.S. applicant referrals made
   3. ETA Form 9142 with accompanying Appendix B.1
   4. Detailed list of work sites and related dates when work is scheduled to begin (i.e.
       Itinerary if applicable)
   5. Completed Recruitment Report and all support documentation regarding 

       recruitment efforts, which would include:

           a. 	 for any person who applied:
                     i. 	 full name, address, and phone contact information, and
                    ii. 	 the results of that application, including whether the person was
                          interviewed and hired
                   iii.	 individual resumes, contact efforts, and employment resolution
   6. If applicable, notification of job opportunity to any laid-off employees within 120
       days of the date of need and result
   7. If applicable, notification to Union Representative(s) and result
   8. If federal funding was received for Fiscal Year 2011, details such as amount,
       date received, purpose, and use of funds
   9. The first two and last two payroll records for all individuals hired (including both
       U.S. and foreign workers) related to H-2B application number(s), including the
       following information:
           a. 	 Employee full name
           b. Beginning date of hire
           c. 	 Last date of employment
           d. Via a check history report, the gross and net pay illustrating all detail
                deductions and support for each deduction, as well as the number of
                hours worked
           e. 	 From the first two and last two payroll periods worked by the employee,
                the payroll detail including gross wages, hours worked, the job number
                and the location (State) of the work
   10. Details and support documentation regarding all benefits provided to each 

       person hired 




                                                                  Management of H-2B Program
                                            33                     Report No. 06-12-001-03-321
                                           U. S. Department of Labor – Office of Inspector General


    11. USCIS I-9, Employment Eligibility Verification, with related documentation for
        each worker hired
    12. Completed and approved USCIS I-129, Petition for a Non-immigrant Worker,
        accounting for each foreign worker hired
    13. If applicable, USCIS form filed for extension of time to remain in the U.S. while
        employed by the company
    14. If applicable, details of employees who returned to work that were used for a
        Fiscal Year 2010 H-2B application. Details included:
            a. Name of employee
            b. Date of original hire
            c. Date re-hired or re-employed
            d. Related I-9 documentation
            e. Related I-129 documentation

We reviewed all employer documentation required to substantiate the attestations made
on the employer's FY 2011 H-2B application. We conducted onsite visits to employers
to discuss their participation in the H-2B program and to verify the legitimacy and
sufficiency of the documentation. In our onsite work, we conducted due diligence on
USCIS’ documentation and employer payroll documents to determine the number of
foreign workers hired; whether the foreign worker’s eligibility status was current; and
whether the foreign workers worked the minimum hours and the employer paid each
worker the prevailing wage. We questioned employers if any documentation was found
to be insufficient or inaccurate.

We interviewed key employer personnel and observed their payroll procedures to gain
an understanding of their payroll system. We assessed control activities for each
employer’s payroll system for general controls and application controls to ensure the
integrity of the payroll data. To ensure workers actually received the compensation
owed to them, we traced summary documents to source documents, including
paystubs, and reconciled those documents to bank statements.

We also contacted DOL, Wage and Hour Division, personnel to discuss prevailing wage
issues identified during our reviews and USCIS personnel to determine whether or not
USCIS performed any type of audits or post-approval reviews on H-2B employers.

Criteria

   20 CFR Part 655, Labor Certification Process and Enforcement for Temporary
    Employment in Occupations Other Than Agriculture or Registered Nursing in the
    United States (H-2B Workers), and Other Technical Changes
   Section 101(a)(15)(H)(ii)(b) of the Immigration and Nationality Act (INA)
   ETA’s internal H-2B Standard Operating Procedures
   ETA’s Post-Adjudication Audit Standard Operating Procedures
   OMB Circular A 123 – Management’s Responsibility for Internal Control




                                                                   Management of H-2B Program
                                             34                     Report No. 06-12-001-03-321
                                      U. S. Department of Labor – Office of Inspector General


                                                                              Appendix C
Acronyms and Abbreviations

CFR             Code of Federal Regulations

CNPC            Chicago National Processing Center

DHS             Department of Homeland Security

DOL             Department of Labor

ETA             Employment and Training Administration

FY              Fiscal Year

INA             Immigration and Nationality Act

NOAE            Notice of Audit Examination

OFLC            Office of Foreign Labor Certification

OIG             Office of Inspector General

RFI             Request for Further Information

SWA             State Workforce Agency

USCIS           U.S. Citizenship and Immigration Services




                                                              Management of H-2B Program
                                       35                      Report No. 06-12-001-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Management of H-2B Program
             36                      Report No. 06-12-001-03-321
                               U. S. Department of Labor – Office of Inspector General


                                                                     Appendix D
ETA Response to Draft Report




                                                       Management of H-2B Program
                                37                      Report No. 06-12-001-03-321
U. S. Department of Labor – Office of Inspector General




                        Management of H-2B Program
 38                      Report No. 06-12-001-03-321
U. S. Department of Labor – Office of Inspector General




                        Management of H-2B Program
 39                      Report No. 06-12-001-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Management of H-2B Program
             40                      Report No. 06-12-001-03-321
                                        U. S. Department of Labor – Office of Inspector General


                                                                              Appendix E
Acknowledgements

Key contributors to this report were Richard A. Pena (Audit Director), Michael
Kostrzewa, Fernando M. Paredes, Barry Winnicki, Jerry Howe, Enrique Lozano,
Christine Allen, and Ajit Buttar.




                                                                Management of H-2B Program
                                          41                     Report No. 06-12-001-03-321
            U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                    Management of H-2B Program
             42                      Report No. 06-12-001-03-321
    TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

    Online:	      http://www.oig.dol.gov/hotlineform.htm
    Email:	       hotline@oig.dol.gov

    Telephone:	   1-800-347-3756
                  202-693-6999

    Fax:          202-693-7020

    Address:      Office of Inspector General
                  U.S. Department of Labor
                  200 Constitution Avenue, N.W.
                  Room S-5506
                  Washington, D.C. 20210
 


 
